               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Stamp Manufacturing and
             Inventory Management

                       Audit Report




                                              July 23, 2012

Report Number MS-AR-12-006
                                                                               July 23, 2012

                                                     Stamp Manufacturing and Inventory
                                                                          Management

                                                             Report Number MS-AR-12-006



BACKGROUND:
The U.S. Postal Service issues three kinds       nature of commemorative and special
of stamps: (1) Definitives: issued in            issue stamps, production volumes require
unlimited quantities in a variety of             closer management scrutiny. Specifically,
denominations — remain on sale until             we found the Postal Service overproduced
rates change; (2) Commemoratives:                2 billion commemorative and special issue
issued in limited quantities to pay tribute to   stamps during calendar years 2009 and
people and events — remain on sale for           2010, resulting in $2 million of
about 18 months; and (3) Special Issues:         unnecessary manufacturing costs annually
such as the Love and holiday stamps,             for stamps that were later destroyed. This
which supplement definitive stamp stock.         occurred because the Postal Service did
                                                 not develop and document an objective
The Postal Service first issued Definitive       forecasting methodology and review
Forever stamps in 2007 to reduce the             process to determine stamp stock
number of stamps destroyed due to a rate         demand. In addition, reduced visibility in
change. Customers can purchase these             retail units hinders accurate forecasting
non-denominational First-Class Mail®             and inventory management.
stamps at the current rate and use them
indefinitely. The Postal Service reduced         WHAT THE OIG RECOMMENDED:
the number of stamps it prints annually          We recommended the Postal Service
from 29.7 billion (production cost,              improve controls over stamp
$56 million) in fiscal year (FY) 2009 to         manufacturing, including documentation of
21 billion stamps (production cost,              procedures to determine stamp stock
$43 million) in FY 2011.                         requirements, and an enhanced review
                                                 and approval process. We also
Our objective was to evaluate whether the        recommended the Postal Service initially
Postal Service effectively forecasts stamp       produce these stamps in limited runs and
stock requirements and manages stamp             develop and implement a strategy to
inventory.                                       maximize sales through unique
                                                 promotional opportunities, given the
WHAT THE OIG FOUND:                              historical lifecycle of similar
The Postal Service’s adoption of the             commemorative and special issue stamps.
Forever stamp has generally alleviated
concerns regarding over-production and           Link to review the entire report
destruction of definitive First-Class Mail
stamps. However, due to the unique
July 23, 2012

MEMORANDUM FOR:             MARIE THERESE DOMINGUEZ
                            VICE PRESIDENT, GOVERNMENT RELATIONS AND
                            PUBLIC POLICY

                            SUSAN M. BROWNELL
                            VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                            for Revenue & Systems

SUBJECT:                    Audit Report – Stamp Manufacturing and Inventory
                            Management (Report Number MS-AR-12-006)

This report presents the results of our audit of the effectiveness of the U.S. Postal
Service’s stamp manufacturing and inventory management (Project Number
12RG007MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director,
Marketing and Service, or me at 703-248-2100.

Attachments

cc: Ronald A. Stroman
    Nagisa M. Manabe
    Dean J. Granholm
    Stephen J. Masse
    Stephen M. Kearney
    Charles G. Delaney
    Corporate Audit and Response Management
Stamp Manufacturing and Inventory Management                                                                           MS-AR-12-006



                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Excessive Commemorative and Special Issue Stamps ..................................................... 2

   Enhancements to Commemorative Program ................................................................. 3

Improved Visibility Needed ................................................................................................. 4

   Proposed Solution Might Resolve Some Issues ............................................................ 5

Recommendations .............................................................................................................. 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 7

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Objective, Scope, and Methodology ............................................................................... 9

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Monetary Impacts ......................................................................................... 12

Appendix C: Overproduced Commemoratives and Special Issue Stamps ..................... 13

Appendix D: Management’s Comments ........................................................................... 14
Stamp Manufacturing and Inventory Management                                                            MS-AR-12-006



Introduction

This report presents the results of our audit of the effectiveness of the U.S. Postal
Service’s stamp manufacturing and inventory management (Project Number
12RG007MS000). Our objective was to evaluate whether the Postal Service effectively
forecasts stamp stock requirements and manages stamp inventory. This is a self-
initiated audit and addresses financial risk. See Appendix A for additional information
about this audit.

Stamps are generally issued in coils, 1 books, or sheets and in one of three categories:

   Definitive: Regular postage stamps issued in unlimited quantities in a variety of
    denominations that remains on sale until rates change. To reduce the number of
    stamps destroyed due to a rate change, the Postal Service began issuing definitive
    Forever stamps in 2007. Customers can purchase these non-denominational
    First-Class Mail® letter stamps at the current rate and use them indefinitely.

   Commemorative: Postage stamps issued in limited quantities to pay tribute to people
    and events. 2 In January 2011, the Postal Service began issuing all commemorative
    stamps as Forever stamps, so they can be revalued after a rate change and remain
    on sale.

   Special Issue: Stamps that supplement regular issues, such as the Love and holiday
    stamps.

Commemorative and special issue stamps attract two types of customers: members of
the general public with special interest in stamps and collectors. The latter is a source of
substantial revenue to the Postal Service. Collectors retained an estimated $45.5 million
worth of commemorative stamps in fiscal year (FY) 2010. In response to declining First-
Class Mail volumes, the Postal Service reduced the projected number of definitive
stamps needed by 29 percent from 29.7 billion in FY 2009 to 21 billion in FY 2011. In
contrast, the Postal Service reduced its projected stamp requirements for
commemorative and special issue stamps by 15 percent, from 5.5 billion in FY 2009 to
4.6 billion in FY 2011.

The Postal Service issues postage stamps and distributes them to about 35,000 postal
retail units (PRUs) through its network of stamp distribution centers (SDCs). 3 PRU
managers return non-Forever stamps to the SDCs for destruction when they become
obsolete or damaged, or after a rate change.


1
  A roll of 100 postage stamps.
2
  The Postal Service develops new commemorative stamp subjects based on public suggestions, input from the
Citizens’ Stamp Advisory Committee, and internal considerations. Stamp subjects are based on such features as
historical events; themes of widespread national appeal and significance; and positive contributions to American life,
history, and culture.
3
  Facilities that consolidate district-level stamp fulfillment activities.
                                                                1
Stamp Manufacturing and Inventory Management                                                         MS-AR-12-006



Conclusion

Overall, the Postal Service’s adoption of the Forever stamp has alleviated concerns
regarding overproduction and destruction of definitive First-Class Mail stamps.
However, because of the unique nature and limited issuance of commemorative and
special issue stamps, production volumes require closer management scrutiny.
Specifically, we found the Postal Service overproduced 2 billion commemorative and
special issue stamps during calendar years (CYs) 2009 and 2010, 4 resulting in
$2 million of unnecessary annual manufacturing costs for stamps that were later
destroyed. Overall, the Postal Service did not develop and document an objective
forecasting methodology and review process to determine stamp stock demand. In
addition, reduced visibility in retail units hinders accurate forecasting. If the Postal
Service improves forecasting and inventory management processes, we estimate it
could save about $2 million annually. See Appendix B.

Excessive Commemorative and Special Issue Stamps

The Postal Service overproduced 2.1 billion commemorative and special issue stamps
during CYs 2009 and 2010. For example, the Postal Service forecast:

   A need for 1 billion Simpsons stamps. However,                                         Nearly twice as
    PRUs only sold 318 million of these stamps                                             many Simpsons
    during CYs 2009 and 2010. Accordingly, the                                             stamps were printed
    Postal Service over-produced 682 million                                               than the most
                                                                                           popular
    stamps (215 percent), incurring unnecessary                                            commemorative
    manufacturing costs of $1.2 million.                                                   ever issued.

   A need for 500 million Flags of our Nation (Series 4) stamps.
    However, PRUs only sold 120 million during CYs
    2010 and 2011, resulting in over-production of
    380 million stamps (317 percent), thus incurring
    unnecessary manufacturing costs of $716,000.

As shown in Appendix C, the Postal Service
overproduced stamp stock for 37 of the 50 stamps                             Flags of Our Nation were
issued during CYs 2009 and 2010 by an average of                             over-produced by 317
34 percent. We did not identify concerns with                                percent.
underproduction of stamp stock, as officials ordered
and distributed additional stamp stock as necessary.

The overproduction occurred because the Postal Service did not develop and document
an objective forecasting methodology and review process to determine stamp stock
demand. Currently, the manager, Stamp Manufacturing, manually compares historical

4
 New stamp designs are planned and requirements are forecast for each calendar year. Stamps produced during a
program calendar year will generally remain on sale into the following year. Accordingly, stamps produced during the
program CYs 2009 and 2010 remained on sale through CY 2011 and into CY 2012.



                                                         2
Stamp Manufacturing and Inventory Management                                                          MS-AR-12-006



production data retrieved from the Stamps Services System (SSS) 5 to retail sales data
from the Point-of-Service (POS) 6 system. The manager then forecasts volume
requirements in the stamp fulfillment networks to ensure that all retail outlets receive
commemorative stamps. The manager then adjusts the forecast based on this
information, personal professional expertise, and past sales of similar commemorative
stamps. This process depends on manual procedures and the experience of one
individual, which increases the risk for costly miscalculations. Further, such errors may
be detected if an independent review and assessment of production estimates were
performed.

At the end of FY 2011, Postal Service Asset Management officials began using
historical sales data and identified factors such as stamp subject and color to determine
stamp stock production requirements. The estimates were then provided to the
manager, Stamp Manufacturing, for review. The first stamp issued with forecast
quantities based on this process was the New Mexico Stamp, released on
January 6, 2012. The effectiveness of the factors and the new processes are unclear at
this time, because the first commemorative Forever stamp to be issued using these
criteria is still being sold in PRUs.

Enhancements to Commemorative Program

Two enhancements to the commemorative and special issue stamp program could
reduce overproduction: limited initial production and increased promotion.

   Limited Initial Production: Collectors make most stamp purchases shortly after the
    stamp’s issue date. During CYs 2009 and 2010, our analysis disclosed that 50
    percent of all commemorative and special issue stamp sales occurred in the first
    13 weeks after the first day of issue. However, the Postal Service printed enough
    commemorative and special issue stamps to remain on sale for an average of
    75 weeks during these 2 years, with more than 2 billion stamps remaining in excess
    after the issue period.

   Increased Promotion: Because commemorative and special issue stamps represent
    new products to the Postal Service line, retail customers might be encouraged to
    purchase them more if they knew of the stamps’ availability and their Forever status.
    Additional retail presence, signage, and clerk promotion might increase the sales of
    these stamps, reducing the need for stamp destruction.

As shown in Table 1, sales of commemorative and special issue stamps decline
significantly between weeks 9 and 11, and sales become level after week 13. If
commemoratives and special issue stamps were printed in smaller quantities, the Postal
Service could take advantage of collectors’ early interest in these stamps. Then


5
  A web-based inventory control system used to facilitate and track the flow of accountable paper, including stamp
stock, in and out of the SDC.
6
  The primary hardware and software system used to conduct retail sales transactions in post offices.



                                                          3
Stamp Manufacturing and Inventory Management                                                            MS-AR-12-006



remaining stamp inventory could be depleted sooner, reducing the need to return and
destroy excess stamp stock after the issue period.

                                                       Table 1




Source: Stamp Sales recorded in the Retail Data Mart. Photograph: U.S. Postal Service Office of Inspector General
(OIG), January 2012.


Improved Visibility Needed

The Postal Service does not have complete visibility over national stamp stock inventory
levels throughout the lifecycle of stamps. The Postal Service’s current inventory control
system, SSS, tracks stamp stock distribution from the SDCs to the PRUs. However,
SSS does not interface with POS One, 7 the system that records stamp sales and return
transactions at retail units. Because data do not move between the two systems, Postal
Service managers manually compare distribution data from SSS with stamp sales
transactions from POS One 8 to generate reports, track stamp sales nationally, forecast
stamp requirements, and plan distribution.

The lack of integration between the two systems inhibits national visibility over PRU
level inventories, which is needed to effectively manage and efficiently optimize stamp
inventories. Without this visibility, Postal Service managers are unable to identify and
redistribute stamps from PRUs with excess stamp stock to those with depleted
inventories. Sharing stamp stock among PRUs would decrease unnecessary
destruction and reprinting costs.



7
    POS One is not in place at all PRUs, which means sales transaction data are not available from those sites.
8
    POS transactions are maintained in the Postal Service’s Retail Data Mart.



                                                            4
Stamp Manufacturing and Inventory Management                                                         MS-AR-12-006




Further, when retail units return stamps to the SDCs for destruction, 9 the stamps’
identity (type and individual value) is not recorded in SSS and only the total value of
stamps destroyed is recorded. 10 Therefore, the Postal Service loses continuous national
visibility into the total inventory of stamps in two places during the lifecycle: first, when
stamps are sold at retail units and second, when stamps are redeemed for destruction.
According to policy, the Postal Service is required to monitor and manage national
stamp inventory levels from point of receipt to withdrawal from sale. 11 However, the
Postal Service cannot effectively monitor national stamp stock inventory levels because
of this lack of end-to-end visibility.

Proposed Solution Might Resolve Some Issues

To effectively manage its sizable investment of more than $28.1 billion in material
inventories and physical assets, including stamps, the Postal Service initiated the Asset
Management Integration Program in 2009. Asset Management Integration focuses on
creating an enterprise-wide approach to postal asset management, and included the
completed consolidation of 71 stamp distribution offices into six SDCs. The effort
includes the implementation of Solution for Enterprise Asset Management 12 (SEAM) for
managing stamp and accountable paper distribution and inventory management at
about 15,000 of the largest PRUs using POS One. The focus of SEAM is to determine
the optimum replenishment quantities for automatic shipments to select PRUs based on
sales volume.

Implementation of SEAM has the potential to improve some — but not all — of the
stamp stock forecasting and visibility issues identified previously. Specifically, current
plans for SEAM are expected to enhance visibility over national stamp stock inventory
levels throughout the lifecycle of the stamp. However, Postal Service officials have
informed us that SEAM will not have visibility into stamp stock at all PRUs or the
functionality to enable inventory optimization through redistribution at the retail level.
Officials explained that only POS One-enabled retail units will have visibility and that
they are not considering inventory optimization at this time due to cost. We agree with
management’s assessment that it would not be cost effective to implement the
functionality in SEAM to enable redistribution at the retail level because of the
complexity and cost of accounting for and shipping stamp stock from one PRU to
another. The anticipated improvements associated with SEAM will depend on complete



9
  SDCs accept off-sale and customer redeemed stamps for destruction.
10
   In December 2009, destruction clerks at the Kansas City SDC discontinued entering individual stamp identification
numbers into the SSS when stamps were redeemed by PRUs. Instead, the clerks consolidated the total value of the
stamps and entered Identification Number 3390000, Redeemed Postage Stock.
11
   Administrative Support Manual, Section 641.1.
12
   SEAM is designed to provide centralized asset and warehouse capacity, tracking, and visibility. SEAM is
web-based and contains functional modules that support fulfillment, planning, and service management of inventories
and assets. The Postal Service plans to implement SEAM Phase 1C, which includes asset management
improvements for accountable paper, expedited packaging supplies, and remaining philatelic products. The Postal
Service plans to fully roll-out Phase 1C by September 30, 2012.



                                                         5
Stamp Manufacturing and Inventory Management                                 MS-AR-12-006



and timely implementation. Because the Postal Service is taking cost-effective steps to
improve the visibility of inventory at the PRU level, we will not make a recommendation
regarding this issue at this time.

Recommendations

We recommend the vice president, Government Relations and Public Policy, in
coordination with the vice president, Supply Management:

1. Improve controls over stamp manufacturing, including documentation of procedures
   to determine stamp stock requirements, and enhance the review and approval
   process for stamp volume forecasting.

2. Produce commemorative and special issue stamps in limited runs as part of a
   strategy to increase percentage sales of each stamp issued.

3. Develop and implement a strategy that captures peak sales and unique promotional
   opportunities of similar commemorative and special issue stamps to increase the
   percentage of each new issue sold.

Management’s Comments

Management agreed with our findings, recommendations, and monetary impact.
Management reiterated several changes to the stamp program since 2010, which will
enhance the program. These include introduction of the Forever Stamp for definitive,
commemorative, and special issue stamps, as well as the development of SEAM as a
product distribution, tracking, and planning tool. Management also noted that on June
30, 2012, the program responsibility for Stamp Services moved from the vice president,
Government Relations and Public Policy to the chief marketing and sales officer.

Regarding recommendations 1 and 2, management is developing standard operating
procedures, to include stamp and philatelic products development, planning, production,
distribution and end-of-life activities. SEAM, in conjunction with retail data and stamp
attributes, will be the primary tool used to forecast production requirements, as well as
inventory replenishment and oversight of inventory levels. The target implementation
date is December 2012.

Regarding recommendation 3, management is developing a strategy for the stamp
program that will maximize sales and profits for each stamp issued, through promotional
opportunities and the issue of stamps that are contemporary and relevant to larger
segments of the population. Target completion date is December 2012.

See Appendix D for management’s comments, in their entirety.




                                               6
Stamp Manufacturing and Inventory Management                          MS-AR-12-006




Evaluation of Management’s Comments

The OIG considers management’s comments responsive and corrective actions should
resolve the issues identified in the report.




                                               7
Stamp Manufacturing and Inventory Management                                                      MS-AR-12-006




                                Appendix A: Additional Information

Background

In 1847, the first official U.S. stamps were created, which were 5- and 10-cent stamps
depicting Benjamin Franklin and George Washington, respectively. In 1893, Postmaster
General George Wanamaker issued the first commemorative stamps, a series of
16 stamps commemorating the World Columbian Exposition held in Chicago, IL, which
celebrated the 400th anniversary of Columbus’ discovery of America. Initially opposed
by Congress, the commemoratives were immensely popular with customers and
collectors.

Today the commemorative stamp program continues to be popular. Annually, the Postal
Service develops new commemorative stamp subjects based on suggestions the public
provides to the Citizens’ Stamp Advisory Committee. The committee then makes its
recommendations to the postmaster general for his consideration. After input from
Stamp Services, 13 stamp subjects are chosen based on such features as historical
events; themes of widespread national appeal and significance; and positive
contributions to American life, history, and culture. In addition to the Postal Service's
extensive line of definitive stamps, about 20 new subjects for commemorative stamps
are recommended each year.

Stamp volume requirements are estimated by the Stamp Services group within the
Postal Service. Stamps are printed and distributed to the SDCs, which distribute stamps
to the PRUs. They sell stamps to customers or return unsold or damaged stamps to the
SDCs (see Chart 1).




13
  Stamp Services oversees the creation, production, distribution, and inventory management of postage stamps,
stationery products, and philatelic products nationwide.



                                                        8
Stamp Manufacturing and Inventory Management                                                                   MS-AR-12-006



                                                            Chart 1

                                              Life-Cycle of the Stamp
                            Stamp Services System (SSS)*                                          Point of Service (POS) One

    Suppliers                Stamp Distribution Centers                                Postal Retail Units
                                                                                                    Postal Retail Units
                                                                            Postal Retail Units     sell stamp stock.
 Suppliers ship
                             Stamp Distribution Centers receive             receive stamp           Sale transactions
 stamp stock to the
                             shipments from suppliers and fulfill           stock order from        are record via
 Stamp Distribution
                             stamp orders to Postal Retail Units.           Stamp Distribution      Point of Service
 Centers.
                                                                            Center.                 (POS) One
                                                                                                    terminals.

                                            Redeemed stamp
                                            stock returned to
                                            Stamp Distribution
                                            inventory; entered into
                                            SSS with stamp
                                            identification number.

                                            Redeemed stamp
                                            stock returned for
                                            destruction is
                                            recorded back into
                                            SSS by value only;
                                            stamp identification
                                            numbers are
                                            excluded.

 *Stamp Services System (SSS) does not interface with the Point of Service (POS) One system.
Source: OIG Analysis, May 2012.


Objective, Scope, and Methodology

Our objective was to evaluate whether the Postal Service effectively forecasts stamp
stock requirements and manages stamp inventory. To accomplish our objective, we
reviewed available policies, procedures, and documentation. We conducted on-site
visits to Stamp Services, Asset Management, the Kansas City Stamp Distribution
Center, and a local PRU; and interviewed key officials to gain an understanding of the
management and oversight process to develop, print, distribute, maintain, and destroy
stamps.

We identified data systems used to manage stamp stock levels at the local and national
levels and gained access to this data as necessary. We analyzed and compared stamp
manufacturing and distribution data to available sales data. Additionally, we assessed
the usefulness of the stamp stock management data systems to determine whether they
effectively help the Postal Service manage stamp stock.

We conducted this performance audit from October 2011 through July 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate



                                                                   9
    Stamp Manufacturing and Inventory Management                                   MS-AR-12-006



    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objective. We believe that the evidence obtained provides a reasonable basis for
    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on June 20, 2012, and included their
    comments where appropriate.

    We assessed the reliability of sales data maintained in the Retail Data Mart and
    distribution data maintained in the SSS by comparing the quantities by the individual
    stamp item numbers. We also confirmed our calculations with Postal Service
    management. We determined that the data were sufficiently reliable for the purposes of
    this report.

    Prior Audit Coverage
                                            Final        Monetary
                        Report             Report       Impact (in
   Report Title         Number              Date         millions)          Report Results
Stamp                FF-AR-11-012        7/29/2011      $5,907,151   The Postal Service did not
Distribution                                                         sufficiently mitigate the
Procedures                                                           increased level of risk
                                                                     incurred when it
                                                                     discontinued the use of
                                                                     Registered Mail™ service for
                                                                     stamp stock shipments and
                                                                     consolidated the stamp
                                                                     distribution offices into six
                                                                     SDCs. Additionally the
                                                                     report identified further
                                                                     consolidation of the stamp
                                                                     distribution network and
                                                                     performing all stamp
                                                                     destruction with Postal
                                                                     Service resources. The
                                                                     report made
                                                                     recommendations regarding
                                                                     limiting access to the SSS;
                                                                     development of a
                                                                     nationwide strategy to
                                                                     manage lost stamp stock
                                                                     shipments; consolidation of
                                                                     offices; and performing
                                                                     stamp destruction using
                                                                     Postal Service resources.
                                                                     Management agreed with
                                                                     the findings,
                                                                     recommendations, and




                                                   10
    Stamp Manufacturing and Inventory Management                                     MS-AR-12-006




                                            Final        Monetary
                         Report            Report        Impact (in
  Report Title           Number             Date          millions)          Report Results
                                                                      monetary impact.
New Approaches       FF-AR-11-009        6/14/2011       $2,153,111   The expansion of Forever
to Reduce Costs                                                       Stamps had not expanded
                                                                      to large coils of First-
                                                                      Class™ stamps. It was
                                                                      calculated that 48,000 coils
                                                                      of those stamps would be
                                                                      destroyed. We
                                                                      recommended that a review
                                                                      be conducted to evaluate
                                                                      the benefits of converting all
                                                                      large coils to Forever
                                                                      Stamps. Management
                                                                      disagreed because they felt
                                                                      the customer base for those
                                                                      products differed from other
                                                                      1-ounce stamp customers.




                                                    11
Stamp Manufacturing and Inventory Management                                                         MS-AR-12-006



                                    Appendix B: Monetary Impacts


      Recommendation                         Impact Category                                    Amount 14
                                                                                                             15
               1                Questioned Costs (CYs 2010–2011)                                 $4,068,611
               1                Funds Put to Better Use (CYs 2013–2014)                             4,068,611
              Total                                                                             $8,137,222




14
   To quantify the monetary impact for the program issue years 2010 and 2011, we compared the total quantity of
stamps produced to the total number of stamps sold for each individual commemorative and special issue stamps.
We then calculated the questioned cost by multiplying the manufacturing unit cost to the excess quantities produced.
The average annual over-production cost was then projected for the program issue years 2013 and 2014 to project
the future potential funds put to better use.
15
   The annual amount is $2,034,305.



                                                         12
Stamp Manufacturing and Inventory Management                                                             MS-AR-12-006




        Appendix C: Overproduced Commemoratives and Special Issue Stamps



                                         Calendar Years 2009 and 2010
                                        Issue Period 2009 through 2011


                                                     Forecast                                                   Over
                                     First Day                                        Excess
        Stamp Description                             Stamp        Stamps Sold                               Production
                                     of Issue                                      Stamp Stock     Percent
                                                   Requirement                                                  Cost

Alaska Statehood                      03-Jan-09       30,000,000      28,953,528       1,046,472       4%        $ 2,720
Lunar New Year (Year of the Ox)       08-Jan-09       60,000,000      24,525,442      35,474,558     145%        92,221
Oregon Statehood                      14-Jan-09       30,000,000      24,793,215       5,206,785      21%        13,536
Edgar Allan Poe                       16-Jan-09       30,000,000      25,497,087       4,502,913      18%        11,706
Abraham Lincoln                       09-Feb-09       50,000,000      43,582,219       6,417,781      15%        16,684
Pioneers of Civil Rights Movement     21-Feb-09       24,000,000      10,312,124      13,687,876     133%        31,085
The Simpsons                           07-May-     1,000,000,000     317,681,254     682,318,746     215%     1,230,896
                                          09
Love King & Queen of Hearts            08-May-       500,000,000     480,160,800      19,839,200       4%        35,790
                                          09
Bob Hope                               29-May-       100,000,000      80,601,350      19,398,650      24%        50,429
                                          09
Black Heritage (Anna Julia Cooper)    11-Jun-09      125,000,000     112,065,565      12,934,435      12%        33,625
Zion National Park                    28-Jun-09       40,000,000      16,734,400      23,265,600     139%        60,482
Gulf Coast Lighthouses                23-Jul-09      100,000,000      99,579,720         420,280       0%         1,093
Flags of our Nation (Series 3)        06-Aug-09      500,000,000     496,570,600       3,429,400       1%         6,090
Early Television Memories             11-Aug-09       50,000,000      43,186,770       6,813,230      16%        17,712
Eid                                   03-Sep-09       20,000,000      13,584,337       6,415,663      47%        16,678
Thanksgiving Day Parade               09-Sep-09       40,000,000      39,313,970         686,030       2%         1,783
Legends of Hollywood (Gary            10-Sep-09       40,000,000      39,160,925         839,075       2%         2,181
Cooper)
Supreme Court Justices                 22-Sep-09       8,000,000       3,190,321       4,809,679     151%        10,923
Nature of America (Kelp Forest)        01-Oct-09      25,000,000      22,384,978       2,615,022      12%         5,939
Winter Holidays                        08-Oct-09   1,300,000,000   1,078,703,956     221,296,044      21%       399,216
Hanukah Menorah                        09-Oct-09      35,000,000      24,412,678      10,587,322      43%        27,523
Kwanzaa                                09-Oct-09      30,000,000      28,289,569       1,710,431       6%         4,446
Lunar New Year (Tiger)                 14-Jan-10      40,000,000      39,915,024          84,976       0%           231
Winter Olympics                        22-Jan-10      45,000,000      44,683,080         316,920       1%           860
Distinguished Sailors                  04-Feb-10      25,000,000      24,819,010         180,990       1%           491
Flags of our Nation (Series 4)         16-Apr-10     500,000,000     119,844,150     380,155,850     317%       716,445
Adopt a Shelter Pet                    30-Apr-10     391,000,000     389,707,871       1,292,129       0%         3,508
Katherine Hepburn                       12-May-       50,000,000      39,580,365      10,419,635      26%        28,285
                                           10
Kate Smith                              27-May-       40,000,000      25,918,406      14,081,594      54%        38,225
                                           10
Negro Leagues Baseball                 15-Jul-10      80,000,000      60,010,880      19,989,120      33%        54,262
Black Heritage (Oscar Micheaux)        22-Jun-10      80,000,000      33,242,360      46,757,640     141%       126,926
Scouting                               27-Jul-10      40,000,000      39,842,845         157,155       0%           427
Nature/America Haw’n Rain Forests      01-Sep-10      30,000,000      20,806,445       9,193,555      44%        23,229
Mother Teresa                          05-Sep-10      60,000,000      51,597,705       8,402,295      16%        22,808
Literary Arts (Julia de Burgos)        14-Sep-10      30,000,000      18,997,100      11,002,900      58%        29,868
Angel with Lute                        21-Oct-10     400,000,000     166,833,595     233,166,405     140%       632,943
Christmas (Hol. Evergreens) Forever    21-Oct-10   2,000,000,000   1,811,577,438     188,422,562      10%       317,347
                                  Totals:          7,948,000,000   5,940,661,081   2,007,338,919      34%    $4,068,611

Source: Stamp Sales recorded in the Retail Data Mart, March 2012.




                                                           13
Stamp Manufacturing and Inventory Management                 MS-AR-12-006



                         Appendix D: Management’s Comments




                                               14
Stamp Manufacturing and Inventory Management        MS-AR-12-006




                                               15
Stamp Manufacturing and Inventory Management        MS-AR-12-006




                                               16
Stamp Manufacturing and Inventory Management        MS-AR-12-006




                                               17
